                                          4248                         Federal Register / Vol. 73, No. 16 / Thursday, January 24, 2008 / Notices

                                          actions such as withholding of                          Other Information                                      DEPARTMENT OF HEALTH AND
                                          payments or converting to the                                                                                  HUMAN SERVICES
                                          reimbursement method of payment.                          References for Background
                                          Continued failure to submit required                    Information:                                           Office of Inspector General
                                          reports may result in one or both of the                   Anderson, N.B. Levels of analysis in health
                                                                                                  science: A framework for integrating                   Solicitation of Information and
                                          following: (1) The imposition of special
                                                                                                  sociobehavioral and biomedical research.               Recommendations for Revising the
                                          award provisions; and (2) the non-                      Annals of the New York Academy of
                                          funding or non-award of other eligible                                                                         Compliance Program Guidance for
                                                                                                  Sciences, 1998, 840, 563–576.
                                          projects or activities. This applies                                                                           Nursing Facilities
                                                                                                     Ballantine, B., Ballantine, I. (Eds.),
                                          whether the delinquency is attributable                 Thomas, D.H., Miller, J., White, R., Nabokov,          AGENCY: Office of Inspector General
                                          to the failure of the grantee organization              P., Deloria, P.J. (Text by), Joseph, A.M.              (OIG), HHS.
                                          or the individual responsible for                       (Intro.) The Native Americans: An Illustrated
                                                                                                  History. Turner Publishing, Inc. Atlanta, GA,          ACTION: Notice.
                                          preparation of the reports.
                                            5. Telecommunication for the hearing                  1993.
                                                                                                     Freeman, W.L. The role of community in              SUMMARY:   This Federal Register notice
                                          impaired is available at: TTY (301) 443–                                                                       seeks the input and recommendations of
                                                                                                  research with stored tissue samples. Weir R
                                          6394.                                                   (Ed.) Stored tissue samples: Ethical, legal,           interested parties as OIG revises the
                                          Agency Contact(s)                                       and public policy implications. University             compliance program guidance (CPG) for
                                                                                                  Iowa Press. Iowa City, lA, 1998, 267–301.              nursing facilities, especially those
                                            1. Questions on the initiative,                          Gazmararian, J.A., Baker, D.W., Williams,           serving Medicare, Medicaid, and other
                                          regarding IHS NARCH issues and                          M.V., Parker, R.M., Scott, T.L., Green, D.C.,          Federal health care program
                                          policies, may be directed to: Alan                      Fehrenbach, S.N., Ren, J. & Koplan, J.P.               beneficiaries. The nursing home
                                          Trachtenberg, MD, MPH, Division of                      Health literacy among Medicare enrollees in
                                                                                                                                                         industry has experienced a number of
                                          Planning, Evaluation and Research,                      a managed care organization. Journal of the
                                                                                                  American Medical Association, 1999, 281,               changes since OIG first published a CPG
                                          Indian Health Service, 801 Thompson                                                                            in this area (65 FR 14289; March 16,
                                          Avenue, TMP Suite 450, Rockville, MD                    545–551.
                                                                                                     Haynes, M.A. & Smedley, B.D. (Eds.) The             2000). Additionally, the subsequent
                                          20852, Telephone: (301) 443–4700, Fax:                  Unequal Burden of Cancer: An Assessment of             years of enforcement and compliance
                                          (301) 443–0114, e-mail: narch@ihs.gov.                  NIH Programs for Ethnic Minorities and the             activity in the nursing home industry
                                            2. Questions on grants management                     Medically Underserved. Institute of                    has allowed OIG to address more fully
                                          and fiscal matters may be directed to:                  Medicine. National Academy Press.                      the various risk areas in nursing home
                                          Sylvia Ryan, Division of Grants                         Washington, DC, 1999.                                  compliance. In evaluating the contents
                                          Operations, Indian Health Service,                         Macaulay, A.C., Commanda, L.E., Freeman,            of the nursing facility CPG, OIG is
                                          Reyes Building, 801 Thompson Avenue,                    W.L., Gibson, N., McCabe, M.L., Robbins,
                                                                                                  C.M., & Twohig, P.L., (for the) North
                                                                                                                                                         soliciting comments, recommendations,
                                          TMP Suite 350, Rockville, MD 20852,                                                                            and other suggestions from concerned
                                                                                                  American Primary Care Research Group.
                                          Telephone: (301) 443–5204, Fax: (301)                                                                          parties and organizations on how best to
                                                                                                  Participatory research maximizes community
                                          443–9602, e-mail: narch@ihs.gov.                        and lay involvement. British Medical Journal,          revise the nursing facility CPG to
                                            3. Questions on NIGMS issues and                      1999, 319, 774–778.                                    address relevant compliance issues.
                                          policies, may be directed to: Clifton A.                   Minority Economic Profiles. U.S. Bureau of          Specifically, OIG seeks comments
                                          Poodry, Ph.D., Minority Opportunities                   the Census, Population Division. Issued July           addressing any changes to existing risk
                                          in Research Division, National Institute                24, 1992. (Tables 1990 CPH–L–92, 93, 94 and            areas and introducing any new risk
                                          of General Medical Sciences, 45 Center                  95).                                                   areas.
                                          Drive, Suite 2AS.37, MSC 6200,                             NIH Publication 98–4247. Women of Color
                                          Bethesda, MD 20892, Telephone: (301)                    Health Data Book. Office of Research On                DATES:   To assure consideration,
                                                                                                  Women’s Health, Office of the Director,                comments must be delivered to the
                                          594–3900, Fax: (301) 480–2753, e-mail:                  National Institutes of Health, 1998.
                                          poodryc@nigms.nih.gov.                                                                                         address provided below by no later than
                                                                                                     Trends in Indian Health 1998–99. Program            5 p.m. on February 25, 2008.
                                            4. Questions on the review of                         Statistics Team, Office of Public Health,
                                          applications may be directed to:                        Indian Health Service, 2001.                           ADDRESSES: In commenting, please refer
                                          Mushtaq A. Khan, D.V.M., Ph.D., Chief,                     Regional Differences in Indian Health               to file code OIG–126–N. Because of staff
                                          Digestive and Respiratory Sciences                      1998–99. Program Statistics Team, Office of            and resource limitations, we cannot
                                          IRGs, Center for Scientific Review, MSC                 Public Health, Indian Health Service, 2000.            accept comments by facsimile (FAX)
                                          7818, Room 2176; 6701 Rockledge                            Weiss, B.D., Reed, R.L., & Kligman, E.W.            transmission.
                                                                                                  Literary skills and communication methods                 You may submit comments in one of
                                          Drive; Bethesda, MD 20892 (20817 for
                                                                                                  of low-income older persons. Patient
                                          courier or express service) Telephone:                                                                         three ways (no duplicates, please):
                                                                                                  Education and Counseling, 1995, 25, 109–
                                          (301) 435–1778; Fax: (301) 451–2043; e-                 119.                                                      1. Electronically. You may submit
                                          mail: khanm@csr,nih.gov.                                   Williams, D.R. & Collins, C. U.S.                   electronic comments on specific
                                                                                                  Socioeconomic and Racial Differences in                recommendations and suggestions
                                          Other required documents                                                                                       through the Federal eRulemaking Portal
                                                                                                  Health: Patterns and Explanations. Annual
                                            If the applicant is a Federally-                      Review of Sociology, 1995, 21, 349–386.                at http://www.regulations.gov.
                                          recognized Tribe, Tribal organization, or                  Williams, M.V., Parker, R.M., Baker, D.W.,          (Attachments should be in Microsoft
                                          a Tribal college letters of support from                Parikh, N.S., Pitkin, K., Coates, W.C., &              Word, if possible.)
                                          the Chairman, President, Governor or                    Nurss, J.R. Inadequate functional health                  2. By regular, express, or overnight
                                                                                                  literacy among patients at two public
                                          Tribal Health Director is required of all               hospitals. Journal of the American Medical
                                                                                                                                                         mail. You may send written comments
                                          Tribes to be served to show their                       Association, 1995, 274, 1677–1682.                     to the following address: Office of
                                          support of the grant project. Letters of                                                                       Inspector General, Department of Health
jlentini on PROD1PC65 with NOTICES




                                          support are intended to document that                     Dated: January 16, 2008.                             and Human Services, Attention: OIG–
                                          applicants have Tribal support for the                  Robert G. McSwain,                                     126–N, Room 5246, Cohen Building,
                                          specific grant for which they are                       Acting Director, Indian Health Service.                330 Independence Avenue, SW.,
                                          applying. All letters of support must                   [FR Doc. 08–243 Filed 01–23–08; 8:45 am]               Washington, DC 20201. Please allow
                                          accompany the grant application.                        BILLING CODE 4165–16–M                                 sufficient time for mailed comments to


                                     VerDate Aug<31>2005   20:35 Jan 23, 2008   Jkt 214001   PO 00000   Frm 00077   Fmt 4703   Sfmt 4703   E:\FR\FM\24JAN1.SGM   24JAN1
                                                                       Federal Register / Vol. 73, No. 16 / Thursday, January 24, 2008 / Notices                                            4249

                                          be received before the close of the                     parties as OIG considers revising the                  commensurate with our performance of
                                          comment period.                                         CPG for the nursing home industry. OIG                 duties.
                                             3. By hand or courier. If you prefer,                will consider all comments,                            DATES: Please submit comments on or
                                          you may deliver, by hand or courier,                    recommendations, and suggestions                       before February 25, 2008.
                                          your written comments before the close                  received within the time frame                         ADDRESSES: To make sure your
                                          period to Office of Inspector General,                  indicated above. OIG would appreciate                  comments and related material do not
                                          Department of Health and Human                          specific comments, recommendations,                    enter the Coast Guard docket [USCG–
                                          Services, Cohen Building, 330                           and suggestions on risk areas for the                  2007–29053] or OIRA more than once,
                                          Independence Avenue, SW.,                               nursing home industry, such as the                     please submit them by only one of the
                                          Washington, DC 20201. Because access                    submission of false claims, as well as                 following means:
                                          to the interior of the Cohen Building is                quality of care concerns, kickbacks, and                  (1) Electronic submission. (a) To Coast
                                          not readily available to persons without                accurate reporting of data to Medicare                 Guard docket at http://
                                          Federal Government identification,                      and Medicaid. Detailed justifications                  www.regulations.gov. (b) To OIRA by
                                          commenters are encouraged to schedule                   and empirical data supporting any                      e-mail to: nlesser@omb.eop.gov.
                                          their delivery with one of our staff                    suggestions would be appreciated.                         (2) Mail or Hand delivery. (a) To
                                          members at (202) 358–3141.                                We request that any comments,                        Docket Management Facility (M–30),
                                             Inspection of Public Comments: All                   recommendations, or suggestions be                     U.S. Department of Transportation,
                                          comments received before the end of the                 submitted in a format that addresses the               West Building Ground Floor, Room
                                          comment period are available for                        topics outlined above in a concise                     W12–140, 1200 New Jersey Avenue, SE.,
                                          viewing by the public. All comments                     manner rather than in the form of a                    Washington, DC 20590–0001. Hand
                                          will be posted on http://                               comprehensive draft guidance that                      deliver between the hours of 9 a.m. and
                                          www.regulations.gov as soon as possible                 mirrors previous CPGs.                                 5 p.m., Monday through Friday, except
                                          after they have been received.                            Dated: January 16, 2008.                             Federal holidays. The telephone number
                                          Comments received timely will also be                   Daniel R. Levinson,                                    is 202–366–9329. (b) To OIRA, 725 17th
                                          available for public inspection as they                                                                        Street, NW., Washington, DC 20503, to
                                                                                                  Inspector General.
                                          are received at Office of Inspector                                                                            the attention of the Desk Officer for the
                                          General, Department of Health and                       [FR Doc. E8–1213 Filed 1–23–08; 8:45 am]
                                                                                                                                                         Coast Guard.
                                          Human Services, Cohen Building, 330                     BILLING CODE 4150–04–P
                                                                                                                                                            (3) Fax. (a) To Docket Management
                                          Independence Avenue, SW.,                                                                                      Facility at 202–493–2251 (b) To: OIRA
                                          Washington, DC 20201, Monday                                                                                   at 202–395–6566. To ensure your
                                          through Friday of each week from 8:30                   DEPARTMENT OF HOMELAND                                 comments are received in time, mark
                                          a.m. to 4 p.m. To schedule an                           SECURITY                                               the fax to the attention of Mr. Nathan
                                          appointment to view public comments,                                                                           Lesser, Desk Officer for the Coast Guard.
                                          phone (202) 619–0089.                                   Coast Guard                                               The Docket Management Facility
                                          FOR FURTHER INFORMATION CONTACT: Joel                   [USCG–2007–29053]                                      maintains the public docket for this
                                          Schaer, OIG Regulations Officer, (202)                                                                         notice. Comments and material received
                                          619–0089; Amanda Walker, Office of                      Collection of Information Under                        from the public, as well as documents
                                          Counsel to the Inspector General, (202)                 Review by Office of Management and                     mentioned in this notice as being
                                          619–0335; or Catherine Hess, Office of                  Budget: OMB Control Numbers: 1625–                     available in the docket, will become part
                                          Counsel to the Inspector General, (202)                 0024, 1625–0036, 1625–0061, and                        of this docket and will be available for
                                          619–1306.                                               1625–0100                                              inspection or copying at room W12–140
                                          SUPPLEMENTARY INFORMATION: The                          AGENCY:Coast Guard, DHS.                               on the West Building Ground Floor,
                                          development of CPGs is a major                                                                                 1200 New Jersey Avenue, SE.,
                                                                                                        Thirty-day notice requesting
                                                                                                  ACTION:
                                                                                                                                                         Washington, DC, between 9 a.m. and 5
                                          initiative of OIG in its effort to engage               comments.
                                          the private health care industry in                                                                            p.m., Monday through Friday, except
                                          addressing and combating fraud and                      SUMMARY: In compliance with the                        Federal holidays. You may also find this
                                          abuse. Over the past several years, OIG                 Paperwork Reduction Act of 1995, this                  docket on the Internet at http://
                                          has developed and issued CPGs directed                  request for comments announces that                    www.regulations.gov.
                                          at various segments of the health care                  the U.S. Coast Guard is forwarding four                   Copies of complete ICRs are available
                                          industry. These guidances are designed                  Information Collection Requests (ICRs),                through this docket on the Internet at
                                          to provide clear direction and assistance               abstracted below, to the Office of                     http://www.regulations.gov.
                                          to specific sections of the health care                 Information and Regulatory Affairs                     Additionally, copies are available from
                                          industry that are interested in                         (OIRA) of the Office of Management and                 Commandant (CG–611), U.S. Coast
                                          addressing compliance with Federal                      Budget (OMB) requesting an extension                   Guard Headquarters, (Attn: Mr. Arthur
                                          health care program requirements.                       of their approval for the following                    Requina), 2100 2nd Street, SW.,
                                             The CPGs set forth OIG’s suggestions                 collections of information:                            Washington, DC 20593–0001. The
                                          on how providers can most effectively                     (1) 1625–0024, Safety Approval of                    telephone number is 202–475–3523.
                                          establish internal controls and                         Cargo Containers; (2) 1625–0036, Plan                  FOR FURTHER INFORMATION CONTACT: Mr.
                                          implement monitoring procedures to                      Approval and Records for U.S. and                      Arthur Requina, Office of Information
                                          identify, correct, and prevent potentially              Foreign Tank Vessels Carrying Oil in                   Management, telephone 202–475–3523
                                          fraudulent conduct. The suggestions                     Bulk; (3) 1625–0061, Commercial                        or fax 202–475–3929, for questions on
                                          contained in the CPGs are not                           Fishing Industry Vessel Safety                         these documents. Contact Ms. Renee V.
                                          mandatory for providers, nor do they                    Regulations; and (4) 1625–0100,                        Wright, Program Manager, Docket
jlentini on PROD1PC65 with NOTICES




                                          represent an exclusive discussion of the                Advance Notice of Vessel Arrival. Our                  Operations, 202–366–9826, for
                                          advisable elements of a compliance                      ICRs describe the information we seek                  questions on the docket.
                                          program.                                                to collect from the public. Review and                 SUPPLEMENTARY INFORMATION: The Coast
                                             Through this Federal Register notice,                comments by OIRA ensure we only                        Guard invites comments on whether
                                          OIG is seeking input from interested                    impose paperwork burdens                               these information collection requests


                                     VerDate Aug<31>2005   20:35 Jan 23, 2008   Jkt 214001   PO 00000   Frm 00078   Fmt 4703   Sfmt 4703   E:\FR\FM\24JAN1.SGM   24JAN1
